September 30, 2009

TIMOTHY C. HANEY
VICE PRESIDENT, NORTHEAST AREA OPERATIONS

SUBJECT: Audit Report – Fiscal Year 2009 Connecticut District
         Financial Risk Audit (Report Number FF-AR-09-225)

This report presents the results of our audit of financial risk at the Connecticut District
(Project Number 09BD017FF000). We conducted this self-initiated audit at five
judgmentally selected business mail entry units (BMEU) and three post offices to
evaluate financial risk as identified by U.S. Postal Service Office of Inspector General
(OIG) Performance and Results Information Systems (PARIS) models. See Appendix A
for additional information about this audit.

Conclusion

District management did not effectively implement all required financial controls in the
Connecticut District.1 Specifically, we identified internal control and compliance issues
at BMEUs related to entering postage statements, closing inactive accounts, and
monitoring PostalOne! overrides. In addition, we identified units that were not
complying with financial controls over stamp stock accountabilities, refunds, and
financial differences. The issues identified at these units are similar to the issues
identified at nine randomly selected audit sites2 in the Connecticut District over the past
3 years. As a result, Connecticut District units are at an increased risk of losing cash,
accountable items, and revenue without detection; and misstating financial records. We
identified $89,274 in monetary impact, recoverable revenue loss and unsupported
unrecoverable questioned costs, and $471,356 in non-monetary impact, revenue and
accountable items at risk.

Accurate and Timely Entering Postage Statements

District management did not effectively manage the accurate and timely entry of
postage statement data into the PostalOne! system. We reviewed 290 postage
statements at five BMEUs and identified 38 statements entered into PostalOne! from 1
to 68 days after the date of mailing. District management monitored delayed

1
  We identified 44 of 82 BMEUs and 202 of 310 post offices with high-risk accounting activities in the Connecticut
District.
2
  These audits were conducted in support of the Postal Service’s financial statements.
Fiscal Year 2009 Connecticut District                                                                    FF-AR-09-225
 Financial Risk Audit


statements weekly; however, they provided inconsistent guidance on recording mailing
dates. This resulted in some statements being entered late that appeared to be entered
on time. We consider $108,941 as a non-monetary impact for revenue at risk3 (see
Appendix E). See Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Northeast Area Operations, instruct the Connecticut
District Manager to:

1. Provide clear and consistent guidance to business mail entry units on recording
   postage statements.

Closing Advance Deposit Accounts

District management did not effectively monitor and require units to close all cancelled
and inactive advance deposit accounts. District management believed they were
effectively monitoring advanced deposit accounts based upon data provided by the
Northeast Area from the Headquarters Business Mail Acceptance (BMA) “Non-Active
Permits Report.” However, neither the area nor district reviewed the data to ensure all
potentially inactive accounts were monitored. As a result, units did not close 47
cancelled and inactive accounts valued at $26,260. We consider this amount
recoverable revenue loss4 (see Appendix D). See Appendix B for our detailed analysis
of this topic.

We recommend the Vice President, Northeast Area Operations, instruct the area
Finance Manager and Connecticut District Manager to:

2. Evaluate inactive account data provided in the Non-Active Permits Report and
   ensure all data is used to monitor inactive accounts.

Monitoring PostalOne! System Overrides

District management did not monitor or manage the review of PostalOne! overrides.
These control overrides occur when a BMEU clerk decides to continue processing a
mailing although the mailing data entered does not conform to control parameters
established in the system. District management did not realize four of five units were
not always reviewing PostalOne! overrides. Through interviews and a review of unit
records, we determined unit management did not always generate a daily override
report and did not verify the appropriateness of all overrides. Three units never
generated the report, nor conducted any reviews and, at one unit that reportedly
reviewed overrides, the unit did not review all overrides because of the large volume;
some overrides were routine, and the report did not contain descriptions for some
overrides. Routine and inaccurate overrides hinder the supervisor’s ability to effectively

3
  Revenue the Postal Service is at risk of losing (for example, when a mailer seeks alternative solutions for services
the Postal Service currently provides).
4
  Revenue that can be collected for goods delivered or services rendered.




                                                           2
Fiscal Year 2009 Connecticut District                                                                   FF-AR-09-225
 Financial Risk Audit


review and monitor all overrides. As a result, the U.S. Postal Service has reduced
assurance that mailings meet standards for the rate claimed and proper postage is
collected.

During our audit, we identified a systemic issue with PostalOne! overrides.5 We are not
making a recommendation to address this system change. We will address this issue
separately in our fiscal year (FY) 2009 Financial Installation Audit – BMEU report,6
which will summarize Postal Service-wide issues relating to BMEUs.

We recommend the Vice President, Northeast Area Operations, instruct the Connecticut
District Manager to:

3. Require unit management to review PostalOne! control overrides and require the
   business mail entry Manager to establish a system to monitor compliance. Until
   Postal Service Headquarters resolves the system limitations, we suggest units place
   increased emphasis on reviewing high-risk overrides such as fees not paid, negative
   balances, and bypass verifications.

Complying with Post Office Financial Controls

District management did not effectively implement internal controls over post office retail
operations. Specifically, we found the following financial control deficiencies:

        One of two7 units could not provide sufficient or supporting documentation for
         $34,467 of $288,008 refund expenses reviewed.
        Both units reviewed did not research and resolve financial differences, totaling
         $28,547, or ensure the unit maintained an individual detailed record to monitor
         the discrepancies.
        All three units maintained excess stamp stock. Combined, the units maintained
         about $394,000, which was more than the $244,000 authorized.

This occurred because district management did not provide consistent oversight of
units’ compliance of post office internal control requirements. District management was
aware that units were not maintaining stamp stock levels within authorized amounts;
however, they did not effectively enforce compliance. Further, although district
management was conducting selected site reviews for Sarbanes-Oxley (SOX)
compliance requirements; the district was unaware these units were not complying with

5
  PostalOne! requires clerks to process an override for some routine transactions that should not require overrides.
During April 2009, there were 1,402 such override occurrences reported as “Minimum Piece/Pounds Not Met” in
PostalOne! for the five sites reviewed. Most of these are for routine transactions related to manifest mailings and
required destination sectional center facility origin trays claimed at the area distribution center/automated area
distribution center rates.
6
  Project Number 09BD002FF000 is associated with audits conducted in support of the audit of the U.S. Postal
Service’s financial statements.
7
  We did not perform all tests at all three post offices. Rather, based on our evaluation of the PARIS model, we only
reviewed the high risk activities associated with the specific post office. See Appendix A for more information.




                                                          3
Fiscal Year 2009 Connecticut District                                                                FF-AR-09-225
 Financial Risk Audit


internal controls over refunds and financial differences. Additionally, the district was not
aware these unit managers did not know how to resolve financial differences. We
identified $63,014 of monetary impact for unrecoverable questioned costs8 (see
Appendix D) and non monetary impact of $362,415 for assets at risk9 (see Appendix E).
See Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Northeast Area Operations, instruct the Connecticut
District Manager to:

4. Provide oversight of units’ compliance with controls over financial differences and
   refunds.

5. Enforce district-wide compliance with stock level requirements.

Management’s Comments

Management generally agreed with all of our findings and recommendations; however,
they did not fully agree with our conclusion that the Connecticut District did not
effectively implement all required financial controls. Their response provided reasons
for the issues we identified but with which they were not in full agreement, and provided
details of systems or processes they have established to ensure compliance with
financial controls. In response to the specific recommendations, the Connecticut District
will reissue formal instructions and guidance on proper procedures for recording
postage statements. Further, on August 12, 2009, the Northeast Area communicated
directives on managing inactive accounts and monitoring appropriate data from reports.
Also, the Northeast Area will monitor compliance with override controls through periodic
unit reviews of the National BMEU Certification Application and instructions to monitor
the override reports daily. Additionally, the Connecticut District will reiterate procedures
for managing financial differences and documenting refund transactions to all units.
Lastly, the Northeast Area issued a memorandum on July 28, 2009, establishing
processes to reduce excess stock and instructed districts to be in compliance with all
unit level stock policies by the end of FY 2009. See Appendix F for management’s
comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to all the findings and
recommendations and their corrective actions should resolve the issues identified in this
report.



8
  Unrecoverable costs that are unnecessary, unreasonable, or an alleged violation of laws or regulations. These
costs are also not supported by adequate documentation.
9
  Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of
inadequate internal controls.




                                                         4
Fiscal Year 2009 Connecticut District                                       FF-AR-09-225
 Financial Risk Audit


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin Ellenberger, Director,
Field Financial-East, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Patrick R. Donahoe
    Joseph Corbett
    Vincent H. DeVito, Jr.
    Pritha N. Mehra
    Elizabeth Doell
    Laurie A. Timmons
    Steven R. Phelps
    Bill Harris




                                           5
Fiscal Year 2009 Connecticut District                                                                       FF-AR-09-225
 Financial Risk Audit


                               APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

BMEUs are established for authorized mailers to present business mailings. The Postal
Service requires mailers to properly prepare all mailings, take them to an approved
BMEU, and pay for them before they enter the mailstream, unless otherwise authorized
by the Pricing and Classification Service Center located in New York, NY.

Post offices (units) are the initial level where the Postal Service recognizes revenue
from operations and include main offices, stations, and branches. The postmasters or
installation heads are responsible for collecting all receipts to which the offices are
entitled, accounting for all funds entrusted to them and ensuring the offices meet all
accounting objectives.

The PostalOne! system is the Postal Service’s primary system for recording business
mail and Periodicals transactions. It allows users to enter postage statements and other
financial transactions and to retrieve reports necessary to manage the day-to-day
business of their units. It also allows customers to submit postage statements and other
information to the Postal Service through a web-based process.

This is an OIG-initiated audit to assess the financial accountability controls over
business mail acceptance and post office operations at the Connecticut District, based
on the PARIS BMEU Model and the Cost and Controls Model. These models use data
from PostalOne! and the Enterprise Data Warehouse (EDW) to assign risk factors
based on compliance and ranks the Postal Service’s 80 districts.10

The Cost and Controls Model indicates that the Connecticut District is most at risk in the
Northeast Area. The BMEU Risk Model identified approximately $10 million of "at risk"
transactions and inactive accounts, and the district ranked 14th nationally.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether internal controls were in place and
effective over:

          postage statements,
          transaction overrides,
          inactive accounts,
          refunds,
          financial differences,
          stamp stock accountabilities, and
          employee items.


10
     The Postal Service recently reorganized from 80 to 74 districts. The models use historical data for the 80 districts.




                                                              6
Fiscal Year 2009 Connecticut District                                         FF-AR-09-225
 Financial Risk Audit


To accomplish our objective, we judgmentally selected five BMEUs and three post
offices based on risks associated with postage statements, transaction overrides,
inactive accounts, refunds, financial differences, stamp stock accountabilities, and
employee items. We interviewed supervisors and employees and observed operations
at the following sites in Connecticut:

       xxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxx
       xxxxxxxxxxxxxx
       xxxxxxxxxxxxx
       xxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxx
       xxxxxxxxxxxxxxxxxxxxx

At all five BMEU’s, we reviewed permit imprint, periodicals, and Business Reply
Mail/Postage Due accounts for inactivity and negative balances. We analyzed user
overrides of controls in the PostalOne! system to determine their validity. For the April
2009 reporting period, we reviewed all of the postage statements entered late in
PostalOne!, according to its own records, and randomly selected 252 from the
remaining 7,117 permit imprint and periodical postage statements to determine whether
postage statement data was entered timely.

At all three post offices, we performed accountability examinations (see Appendix C)
and evaluated whether the internal control structure over financial accounting and
reporting, stamp stock accountability, and employee items was implemented and
functioning as designed. At two units, we reviewed financial differences and refunds
generated for the June 2008 through May 2009 reporting period. We interviewed
district management to determine what procedures the district had in place to monitor
BMEU and post office financial risk factors.

We traced recorded financial transactions to and from supporting documentation and
assessed the reliability of computerized data by verifying the computer records to
source documents. We used Postal Service instructions, manuals, policies, and
procedures as criteria to evaluate internal controls and data reliability. We also
evaluated whether the internal control structure over the preceding high-risk areas
noted were implemented and functioning as designed.

We conducted this performance audit from May through September 2009 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our



                                            7
Fiscal Year 2009 Connecticut District                                         FF-AR-09-225
 Financial Risk Audit


observations and conclusions with management on September 3, 2009, and included
their comments where appropriate.

PRIOR AUDIT COVERAGE

                                             Report        Final Report   Monetary
               Report Title                  Number            Date        Impact
   FY 2009 Financial Installation Audit –   FF-AR-09-102     2/24/2009        $0
   Bridgeport Post Office, Bridgeport, CT
   FY 2009 Financial Installation Audit –   FF-AR-09-101     2/24/2009        $0
   Middletown Business Mail Entry Unit,
   Middletown, CT
   FY 2008 Financial Installation Audit –   FF-AR-08-268     8/20/2008      $85,804
   Norwich Business Mail Entry Unit,
   Norwich, CT
   FY 2008 Financial Installation Audit –   FF-AR-08-228     7/3/2008       $40,474
   Hartford Business Mail Entry Unit,
   Hartford, CT
   FY 2008 Financial Installation Audit –   FF-AR-08-119     3/4/2008       $17,193
   North Haven Post Office, North
   Haven, CT
   FY 2008 Financial Installation Audit –   FF-AR-08-082     1/28/2008      $20,347
   Madison Business Mail Entry Unit,
   Madison, CT
   FY 2007 Financial Installation Audit –   FF-AR-07-150     4/30/2007        $0
   Storrs Business Mail Entry Unit,
   Storrs, CT
   FY 2007 Financial Installation Audit –   FF-AR-07-072     1/23/2007        $0
   Willimantic Business Mail Entry Unit,
   Willimantic, CT
   FY 2007 Financial Installation Audit –   FF-AR-07-053     1/8/2007         $0
   Redding Ridge Post Office, Redding
   Ridge, CT


Management agreed with our findings, recommendations, and monetary impact in these
prior audits; however, we identified repeat findings with controls over timely postage
statement entry, inactive accounts, and excess accountabilities.

       In two of nine audits, we reported 153 postage statements entered into
        PostalOne! from 1 to 75 days late and reported monetary and non-monetary
        impact of $18,314 and $2,256, respectively.
       In five of nine audits, we reported inactive customer advance deposit accounts
        totaling $131,828.
       In two of nine audits, we reported excess stock totaling $113,300.




                                                 8
Fiscal Year 2009 Connecticut District                                                                   FF-AR-09-225
 Financial Risk Audit


                                  APPENDIX B: DETAILED ANALYSIS

Accurate and Timely Entering Postage Statements

District management did not effectively manage the accurate and timely entry of
postage statement data in the PostalOne! system. We noted PostalOne! users at the
sites we visited did not always record the date of mailing correctly in system records.
Further, employees reversed transactions to change the mailing dates to match the
processing dates to avoid delayed statements.

We reviewed 290 postage statements and identified 38 entered into PostalOne! from 1
to 68 days after the date of mailing. We consider $108,941 as revenue at risk (see
Appendix E). During our audit, we noted:

          As of April 2009, the Business Mail Acceptance Delayed Postage Statement
           reports indicated the district had 31 postage statements entered late. However,
           we found that 15 of those statements were entered on time. PostalOne! system
           problems prevented timely entry or unit employees did not change the mailing
           date when finalizing electronic postage statements. For example, when
           customers submit Postal Wizard11 statements electronically in the system one
           day, but bring the mail to the unit the following day, acceptance personnel must
           update the date of mailing in PostalOne! to reflect the date the mail was verified
           and released for processing.12

          Management reports indicated that 7,117 permit imprint and Periodicals
           statements were entered on time. We examined a random sample of 252
           statements and found 14 were entered late. Unit employees changed the date of
           mailing based on inconsistent guidance by district management to match the
           date the statement was processed in PostalOne!. For example, in three units,
           employees changed the mailing dates, although they verified and released the
           mail to operations days earlier.

                                  Reported Late                     Not Reported Late
                            Number of     Number of             Number of      Number of           Additional
                            Statements Statements               Statements    Statements              Late
          Unit Name          Sampled     Input Timely            Sampled      Found Late           Statements
       xxxxxxxxxxxxx            10             0                     50            5                    0
       xxxxxxxxx                10             6                     60            0                    6
       xxxxxxxx                  8             8                     60            1                    0
       xxxxxxxxx                 2             1                     60            8                    0
       xxxxxxxxxxx               1             0                     22            0                    1
                 Totals         31            15                    252           14                    7




11
     Postal Wizard provides mailers a secure method for entering postage statements electronically in PostalOne!.
12
     Handbook DM-109, Business Mail Entry, January 2009, Table 9-5.1, item 2.




                                                            9
Fiscal Year 2009 Connecticut District                                                               FF-AR-09-225
 Financial Risk Audit


Additionally, in two of nine financial installation audit reports issued for BMEU sites in
the Connecticut District over the prior 3 years, we identified 153 postage statements
entered into PostalOne! from 1 to 75 days late and reported monetary impact of
$18,314 and non-monetary impact of $12,936.13

Through interview and review of unit records, we found that Connecticut District
management uses data from the Business Mail Acceptance website to monitor the
timely entry of postage statements into PostalOne! weekly. District management is
required to review timely postage statement entry procedures with unit management
monthly.14 While SOX messaging and newsletters communicated the need to enter
postage statement data timely, employees reported they received inconsistent guidance
from district management on how to record the mailing dates in PostalOne! to be in
compliance with SOX. We believe the reports Connecticut District managers used to
gauge compliance might not be a reliable indicator of performance.

Closing Advance Deposit Accounts

District management did not effectively monitor and require units to close all cancelled
and inactive advance deposit accounts.15 District management believed they were
effectively monitoring advanced deposit accounts based upon data provided by the
Northeast Area from the BMA Non-Active Permits report.16 This report contains 35
columns of data relating to inactive accounts. The area and district monitored a column
labeled “Inactive, Cancelled, Denied, or Deleted.” However, another column was
labeled “Active,” and it contains accounts that are considered active by Headquarters
BMA but not having any mailing activity during the past 2 years. The Postal Service
defines inactive accounts as an account for which no mailing activity occurred for 2
years, and these accounts should be closed. The area did not instruct the district to
review those accounts with no activity during the past 24 months, because the BMA
reports did not clearly identify them as inactive accounts in the weekly updates sent to
the area managers.

The BMA report identified 1,040 “Inactive, Cancelled, Denied, or Deleted” accounts for
the Northeast Area as of April 30, 2009. Of those, there were 92 inactive accounts,
valued at $3,660, identified for the Connecticut District. However, there were10,785
“Active” accounts, valued at $2,006,030, that did not have mailing activity during the
past 2 years in the Northeast Area as of April 2009. Of those, the report noted 1,180
accounts,17 valued at $284,547, in the Connecticut District.

13
   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
14
   Handbook DM-109, Exhibit 1-1, page 2, Revenue Protection Responsibilities, item 12.
15
   Handbook F-101, Field Accounting Procedures, July 2009, Sections 16-7 and 17-6, and Handbook DM-109, Table
1-1.
16
   The Non-Active Accounts report is obtained from the BMA website and is based on PostalOne! data.
17
   This number may include some accounts that may not be inactive (for example, periodicals accounts that have not
mailed in more than 24 months at the original entry unit).




                                                        10
Fiscal Year 2009 Connecticut District                                                              FF-AR-09-225
 Financial Risk Audit



                        Inactive Accounts Data provided from the BMA
                                    Report As of April 2009

                                                      Number of
                                                       Inactive      Compliance      Book Value
                       Northeast Area                 Accounts         Rate18        (thousands)
             Information provided to Districts             1,040            99%             $181
             BMA Report                                   10,785            85%           $2,006
                   Connecticut District
             Information provided to District                  92             99%               $4
             BMA Report                                     1,180             89%             $285

As a result of not effectively monitoring inactive accounts, we determined that the three
BMEUs examined did not close 47 cancelled and inactive accounts totaling $26,260.19
We consider this amount to be monetary impact, categorized as recoverable revenue
loss.

Since our audit visits, the units closed 31of the 47 cancelled and inactive advanced
deposit accounts.

Complying with Post Office Financial Controls

District management did not effectively implement internal controls over post office retail
operations. This occurred because district management did not:

        Enforce compliance with maintaining stamp stock levels within authorized
         amounts, although they were aware the units were not following the
         requirements.
        Provide oversight and was unaware these units were not complying with controls
         over financial differences and refunds.

We did find district management was monitoring employee items and working with units
to resolve and clear all outstanding items greater than 120 days.

The district monitored and notified units of excess stock; however, they did not develop
procedures to ensure units reduced stock levels.20 The following table identifies the
number of units with excess stock in the Connecticut District.




18
   Measures the percentage of active, versus inactive, accounts in the district.
19
   This includes $10,494 refunded to Account Identifier Code (AIC) 126, Miscellaneous Non-Postal Revenue, and
$15,766 for 16 inactive accounts without resolution.
20
   Handbook F-101, Sections 11-3.4 and 14-2.3.




                                                       11
Fiscal Year 2009 Connecticut District                                                                 FF-AR-09-225
 Financial Risk Audit



                    Connecticut District Stock Ledger Summary for May 2009

                                                     Units with      Percent of
                                   Units with         Excess         Units over       Excess Stock
               Stock Type        Accountability        Stock        Stock Limits       (in millions)

             Unit Stock               32921              144               44              $2.57
             Retail Floor              230               183               80              $2.56

At the three units we examined, managers stated that they were aware they exceeded
retail floor or unit reserve stock limits. However, unit management at all three units
chose not to reduce stock accountabilities because they believed it would adversely
impact customer service. Further, district management did not enforce policy because
they were focused on improving compliance with other financial controls such as
employee items. The following table details excess stock identified at the three units we
reviewed.

                                                    Excess Stock

                                                                               Excess
                                              Authorized       Stock on     Accountability         Percent
          Unit Name          Stock Type       Stock Level        Hand       (May 31, 2009)         Excess

        xxxxxxxxx           Unit                  $142,458     $256,397            $113,939         80
                            Retail Floor            22,519       57,379              34,859         155

        xxxxxxxxx           Retail Floor            31,066        85,452              54,385        175

        Xxxxxxxxx         Retail Floor              48,071      242,161             194,091         404
                      Totals                      $244,114     $641,389            $394,274

Maintaining excess retail floor stock may have contributed to shortages totaling about
$1.1 million at the three units during the past year.22 We believe limiting the amount of
retail floor stock may help prevent significant shortages in the future.

District management did not provide oversight for internal controls over financial
differences and refunds. Further, although district management was conducting
selected site reviews for SOX compliance requirements; the District was unaware these
units were not complying with internal controls over refunds and financial differences.
Additionally, the District was not aware these unit managers did not know how to
resolve financial differences. When management does not monitor internal controls


21
  This includes self service and automated postal centers.
22
  Information obtained for August 2008 through July 2009 from Segmented Inventory Accountability (SIA) Count
Compliance reports in the Accounting Data Mart. Required accountability examinations of retail floor stock were
conducted and recorded by management.




                                                        12
Fiscal Year 2009 Connecticut District                                           FF-AR-09-225
 Financial Risk Audit


over financial differences and refunds, there is an increased risk of loss of funds and
inaccurate financial statements. Specifically, we found:

          Management at the two units examined did not research and resolve financial
           differences totaling $28,547. The units did not maintain a detailed record
           because unit management did not have an understanding of expenses related to
           differences in financial transactions and were not aware that all expenses
           needed to be resolved and tracked on a log.23

          One unit could not provide sufficient documentation24 for $34,467 of the
           $288,008 in refunds reviewed. Unit management stated that they try to review all
           supporting documentation but completing other assigned duties sometimes
           prevents complete reviews.




23
     Handbook, F101, Section 8-6.
24
     Handbook F101, Section 21.




                                              13
Fiscal Year 2009 Connecticut District                                                                  FF-AR-09-225
 Financial Risk Audit


               APPENDIX C: ACCOUNTABILITY EXAMINATION SUMMARY

This table presents the results of accountability examinations performed during the audit,
rounded to the nearest dollar.

                                            xxxxxxxx            xxxxxxxxx
                                           xxxxxxxxt            xxxxxxxxx          xxxxxxxxxxxxxx
                                             xxxxxx               xxxxxx            xxxxxxxxxxx
                                            Overage/             Overage/              Overage/
                Accountability             (Shortage)           (Shortage)            (Shortage)
              Unit Reserve Stock              ($94)                $427                ($6,011)25
              Retail Floor Stock26              -                    -                   $7,588




25
   We conducted the unit reserve count on July 22, 2009. The Customer Service Supervisor explained that the
shortage occurred because of insufficient oversight regarding the transfer of stock between the unit reserve stock and
the retail floor stock. The shortage amount of $6,011 was entered into AIC 767, Employee Stamp Credit Shortage, in
the Point-of-Service system.
26
   We conducted counts of retail floor stock based on risk assessment and the unit’s SIA count compliance history.




                                                         14
Fiscal Year 2009 Connecticut District                                     FF-AR-09-225
 Financial Risk Audit


                               APPENDIX D: MONETARY IMPACT

                         Finding                   Description      Amount
           District management did not        Recoverable Revenue    $26,260
           effectively monitor and require    Loss
           units to close all cancelled and
           inactive advanced deposit
           accounts.
           District management did not        Unsupported             34,467
           monitor one units' compliance      Unrecoverable
           with internal controls over        Questioned Costs
           refund transactions.
           District management did not        Unsupported             28,547
           monitor units' compliance with     Unrecoverable
           internal controls over             Questioned Costs
           researching and resolving
           financial differences.

                                              TOTAL                  $89,274




                                              15
Fiscal Year 2009 Connecticut District                                                                FF-AR-09-225
 Financial Risk Audit


                             APPENDIX E: NON-MONETARY IMPACT

                       Finding                              Description                    Amount
           District management did not                  Revenue at Risk                    $108,941
           monitor units' compliance with
           accurate and timely entry of
           postage statement data.

           District management did not                  Accountable Items at               362,41527
           monitor units' compliance with               Risk
           internal controls over stamp
           stock accountabilities.

                                                        TOTAL                              $471,356




27
  This amount does not include the excess retail floor stock of $34,859 at the Waterbury Post Office. When units
have both excess stamp stock and retail floor stock, we only claim the higher amount as non-monetary impact.




                                                        16
Fiscal Year 2009 Connecticut District                       FF-AR-09-225
 Financial Risk Audit


                        APPENDIX F: MANAGEMENT’S COMMENTS




                                        17
Fiscal Year 2009 Connecticut District        FF-AR-09-225
 Financial Risk Audit




                                        18
Fiscal Year 2009 Connecticut District        FF-AR-09-225
 Financial Risk Audit




                                        19
Fiscal Year 2009 Connecticut District        FF-AR-09-225
 Financial Risk Audit




                                        20
